OIG Investigative Reports Press Release Oxford, MS., November 14, 2013 - Former Greenville, MS School District Superintendent Sentenced to 76 Months for Receiving Bribes
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRICT of MISSISSIPPI
NEWS
Former Greenville, MS School District Superintendent Sentenced to 76 Months for Receiving Bribes
FOR IMMEDIATE RELEASE
November 14, 2013
OXFORD, Miss. - Felicia C. Adams, United States Attorney for the Northern District of Mississippi, Mississippi State Auditor Stacey Pickering, and Yessyka Santana, Special Agent in Charge of the U.S. Department of Education Office of Inspector General's Southeastern Regional Office announced that:
Harvey Franklin, 57, of Monroe, Georgia, was sentenced yesterday by United States District Judge Sharion Aycock in Aberdeen, Mississippi, to 76 months imprisonment for receiving bribes and kickbacks from Edna Cochran Goble and embezzling federal funds from the Department of Education in connection with a contract for reading services between the Greenville, Mississippi, Public School District and Edna Goble’s company, Teach Them to Read, Inc. d/b/a Early Detection Necessary Action.  In addition, Franklin was ordered to pay $1,201,247 in restitution to the Department of Education, including an immediate payment of $75,000, 3 years supervised release, 300 hours of community service and a $300 special assessment.
Franklin pled guilty on August 2, 2012, to a three count Information charging him with conspiracy to receive bribes and kickbacks in violation of 18 U.S.C. § 371; receiving bribes and kickbacks in connection with federal program funds in violation of 18 U.S.C. § 666(a)(1)(B); and embezzlement of federal funds in violation of 18 U.S.C. §641.
Edna Goble pled guilty on October 7, 2013, to Count One of an Indictment charging her with Conspiracy to pay bribes and kickbacks in connection with federal program funds in violation of 18 U.S.C. §371.  No sentencing date has been set for Goble.
This case was investigated by Special Agents of the Department of Education, Office of Inspector General and the Office of the State Auditor for the State of Mississippi and was prosecuted by Assistant United States Attorneys Clay Dabbs and Clay Joyner.
Top
Printable view
Last Modified: 02/27/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov